First District Court of Appeal
State of Florida
No. 1D19-2660
Derrick G. James,
Petitioner,
v.
Florida Department of
Corrections,
Respondent.

Petition for Writ of Certiorari—Original Jurisdiction.
December 10, 2020
Per Curiam.
The petition for writ of certiorari is denied on the merits.
Rowe, WINOKUR, and NORDBY, JJ., concur.

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

"A ppen fiiy A”

DERRICK G JAMES vs. DEPT OF CORRECTIONS
LT. CASE NO: 2018 CA 001820; 2018 CA 002108
FIT. CASE NO: 1D19-2660

AUGUST 16,2018

PETITION FOR WRIT OF MANDAMUS

008-019

SEPTEMBER 05, 2018

APPLICATION FOR CIVIL INDIGENT STATUS INDIGENT - SCHMIDT PRISONER

020 - 023

SEPTEMBER 18, 2018

ORDER TO SHOW CAUSE

024 - 026

NOVEMBER 13, 2018

RESPONDENT'S MOTION FOR EXTENSION OF TIME
TO RESPOND TO ORDER TO SHOW CAUSE

027 - 029

NOVEMBER 30, 2018

ORDER GRANTING EXTENSION OF TIME

JANUARY 18, 2019

MOTION TO CONSOLIDATE CASE NUMBERS 2018 CA
002108 AND 2018 CA 1820

031 -033

JANUARY 18,2019

MOTION FOR ENLARGEMENT OF TIME TO FILE
RESPONSE

034 - 037

JANUARY 29, 2019

ORDER GRANTING MOTION TO CONSOLIDATE CASE
NUMBERS 2018 CA 002108 AND 2018 CA 1820 (CASE
NUMBER 2018 CA 2108 CONSOLIDATED INTO 2018 CA
1820)

038 -039

JANUARY 29, 2019

ORDER GRANTING DEPARTMENT'S MOTION FOR
ENLARGEMENT OF TIME TO FILE RESPONSE TO
ORDER TO SHOW CAUSE

040 - 041

FEBRUARY 06, 2019

MOTION FOR ENLARGEMENT OF TIME TO FILE
RESPONSE

042 - 044

FEBRUARY 13, 2019

ORDER GRANTING DEPARTMENT'S MOTION FOR
ENLARGEMENT OF TIME TO FILE RESPONSE TO
ORDER TO SHOW CAUSE

045 - 046

MARCH 01, 2019

PLAINTIFF'S RESPONSE TO FL DOC'S REQUEST FOR
ENLARGEMENT OF TIME TO FILE RESPONSE

047 - 049

APRIL 15,2019

RESPONSE TO ORDER TO SHOW CAUSE

050 - 114

APRIL 25, 2019

MOTION FOR EXTENSION OF TIME

115 - 118

MAY 03, 2019

PLANTIFFS REPLY TO DEPARTMENTS RESPONSE TO
ORDER TO SHOW CAUSE

119-151

ORDER DENYING PETITION FOR WRIT OF
MANDAMUS

152-156

% JUNE 25, 2019

« /

Appen dix B”

030

r

f

i

State Of Florida
Department Of Corrections
Martin Correctional Institution
RECORDS OFFICE

Memo To:

James, Derrick

From:

J. Ingraham, CSS

Date:

August 15, 2018

Subject:

Sentence Audit

DC#: 536293

Housing:

A/001-006: Re-audit Of The Chaining To Respond To Grievance,
Case 99-721 Consecutive to Any Active Sentence,
Chained to 94-16096 Should Have Been Chained to 98-28312,
20 Year Term,
Corrected, ,
Increased TRD by 20 Years from 7/4/29 to 7/23/48,
Now an overall 53 Year 6 Month Term.
TRD changed from: 07/04/2029 to

07/23/2048

J. Ingraham,
Correctional Sentence Specialist

“A ppen dix B*

A4102U

¥i

w
(

y

Appealed to no avail.
REQUEST FOR ADMINISTRATIVE REMEJjjrgOHBBaj^
RE:

JAMES, DERRICK FDC# 536293

PAGE

2

SEP 0 5 20J$APPEAL-#T 18-6-31769

-*52SSSt- ■
Your request for administrative remedy and/or appeal has been received, reviewed and evaluated.
In response to your grievance a file audit was performed and it was noted Broward County Case 99-721, your 30
year term was designated consecutive to any active sentence. It was incorrectly chained consecutive to Broward
County Case 94-16096, your 3 year 6 month term. The chaining of Case 99-721 has been corrected this date to
run consecutive to Dade County Case 98-28312, your 20 year term increasing your overall term from 33 years 6
months to 53 year 6 months, changing your tentative release date from 7/4/29 to 7/23/48.
Section 944.275(2), Florida Statutes, requires the Department to establish a “maximum sentence expiration
date” for a single sentence or multiple consecutive sentences. That date is calculated as follows: date of first
prison sentence + length of all prison terms - judicial credit = maximum sentence expiration date.
The result of this provision is that gain-time may be awarded and/or forfeited pursuant to s. 944.28(1) or (2)
from any of the sentences, even the first sentence in a consecutive chain, prior to the combined sentences
reaching their combined endpoint. Thus, consecutive sentences are treated as one overall term and no one
sentence is satisfied until aU sentences are satisfied.
You received 420 days of Basic Gain-time for Case 94-16096 and this gain-time is included in your overall pool
of gain-time that is subject to forfeiture as long as your sentences are active.
Date Broward County Case 94-16096 Imposed:
Three (3) Years Six (6) months in Days;
County Jail Credit:
Twenty (20) Years in Days:
County Jail Credit:
Thirty (30) Years in Days:
County Jail Credit:
Maximum Release Date:
Basic Gain-time Applied (Case 94-16096):
Incentive Gain-time Accrued:
Gain-time Forfeited due to Disciplinary Actions:
Tentative Release Date:

October 22, 1998
+ 1278
135
+ 7300
341
+ 10950
195
June 08, 2050
420
821
+
556
July 23, 2048

Based on the foregoing, your request is denied.

(XaaI^ CUvi
08/15/18
Signature and Typed
or Printed Name
Employee Responding
(L. .Santana)

—'
Signature of Warden
Asst. Warden, or
Secretary’s Representative

“Appendix B”

Date:

£_j_
REQUEST FOR ADMINISTRATIVE^EMEpf®»IAL

VVH 'HASgMCYCLEPIK

RE:

JAMES, DERRICK FDC# 536293 UU' li 5 2018

PAGE

2

APPEAL#: 18-6-37074

department gt corrections^^

Your request for administrative remed|S^i^0r-appeal-has'been received, reviewed and evaluated.
Every time an inmate’s sentence is questioned the record is required to be audited by institutional staff and
central office staff to determine that the sentences are being served as the court intended. It is unfortunate that
the chaining error was not caught sooner and corrected. However, upon audit in August 2018, it was noted your
20 year consecutive sentence was not chained to the longest previously imposed sentence, which was your 30
year sentence thus it was corrected increasing your overall term from 33 years 6 months to 53 years 6 months.
The Department is only carrying out the direction of the sentencing court and it is not personal, any error found
in an inmate’s sentence is required to be corrected. You are sentenced to consecutive terms and it is the
department’s responsibility to carry out the court’s intent.' k
Based on the foregoing, your request is denied.

09/07/18
Signature and Typed
or Printed Name
Employee Responding
(L. Santana)

Signature of Warden
Asst. Warden, or
Secretary’s Representative

Date:

Supreme Court of Jflorfoa
TUESDAY, MARCH 2, 2021
CASE NO.: SC21-310
Lower Tribunal No(s).:
ID 19-2660; 372018CA002108XXXXXX; 372018CA001820XXXXXX

V

DERRICK GREGORY JAMES

vs.

Petitioner(s)

FLORIDA DEPARTMENT OF
CORRECTIONS
Respondent(s)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wheeler v. State, 296 So. 3d 895 (Fla.
2020); Wells v. State, 132 So. 3d 1110 (Fla. 2014); Jackson v. State, 926 So. 2d
1262 (Fla. 2006); Gandy v. State, 846 So. 2d 1141 (Fla. 2003); Stallworth v.
Moore, 827 So. 2d 974 (Fla. 2002); Harrison v. Hyster Co., 515 So. 2d 1279 (Fla.
1987); DodiPubl’g Co. v. Editorial Am. S.A., 385 So. 2d 1369 (Fla. 1980); Jenkins
v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

John A. Tomasino
Clerk. Supreme Court
td
Served:
DERRICK GREGORY JAMES
HON. KRISTINA SAMUELS, CLERK
HON. GWEN MARSHALL, CLERK
HON. RONALD WALLACE FLURY, JUDGE

ff

LANCE ERIC NEFF

Filing # 105281006 E-Filed 03/23/2020 12:14:02 PM

IN THE CIRCUIT COURT OF THE SECOND JUDICIAL CIRCUIT
IN AND FOR LEON COUNTY, FLORIDA
DERRICK G. JAMES, DC #536293,
Petitioner,
Case No.: 2Q18-CA-002108
(consolidated into 2018-CA-001820)

v.

FLORIDA DEPT. OF CORRECTIONS,
Respondent.
ORDER ADMINISTRATIVELY CLOSING CASE
THIS CAUSE comes before the Court sua sponte. This Court granted the Department’s
motion to consolidate on January 28, 2019, and consolidated the instant case with Leon County
Case No.: 2018 CA 001820. A final order denying Petitioner’s petition for writ of mandamus was
rendered in Case No.: 2018 CA 001820 on June 25, 2019. The record reflects that an appeal has
been filed in the First District Court of Appeal, case number 1D19-2660. The First District Court
of Appeal has acknowledged the new case, and it remains pending.
Accordingly, the Clerk of Court is directed to ADMINISTRATIVELY CLOSE this case.
This order is without prejudice to any party re-opening this case as permitted by law.
DONE AND ORDERED in Chambers/Tallahassee, Leon County, Florida, this^-3 day
Of

, 2020.

RONALD W. FLUR5
Circuit Judge

Copies to:

SERVICE LIST
BEVERLY BREWSTER
Assistant General Counsel
Florida Department of Corrections
501 S. Calhoun St.
Tallahassee, Florida 32399
Beverly.Brewster@fde.myflPrida.com
DERRICK G. JAMES, DC # 536293
Columbia Correctional Institution - Annex
216 S.E. Corrections Way

Lake City, Florida 32025-2013

Filing # 91619390 E-Filed 06/25/2019 11:09:01 AM

IN THE CIRCUIT COURT OF THE SECOND JUDICIAL CIRCUIT IN
AND FOR LEON COUNTY, FL
DERRICK JAMES, DC # 536293
Petitioner,
v.

Case Nos.: 2018 CA 001820

DEPT. OF CORRECTIONS.
Respondent.
ORDER DENYING PETITION FOR WRIT OF MANDAMUS
THIS CAUSE came before the Court upon Petitioner James’ “Petition for Writ of
Mandamus,” filed August 14,2018.1 The court having considered the petition, the response filed
by the Florida Department of Corrections, the reply thereto, the court file, and being otherwise
fully advised, finds:
Petitioner James alleges that the Respondent Department has violated his right to due
process by correcting his sentence structure to be compliant with the orders of the various
sentencing courts. Petitioner James also alleges that he has not received the appropriate award of
basic gain-time in case number 94-16096. (Pet.).
"Mandamus is an extraordinary remedy based on equitable principles which will issue
only upon a showing of a clear legal right in the petitioners to the performance of a legal duty or
ministerial act." See Graham v. Vann, 394 So.2d 180,182 (Fla. 1st DCA 1981); See also Hatten
v. State, 561 So.2d 562, 563 (Fla. 1990).

1 On September 26,2018, Petitioner James filed a second Petition for Writ of Mandamus with
this Court, case number 2018 CA 2108, raising substantively identical claims. On January 28,
2019, the Court granted the Department’s Motion to Consolidate.
1

Petitioner James was sentenced in the Circuit Court of Broward County on October 22,
1998, for the following:
Case Number: 94-16096 (violation of probation)
Term: Three and one-half (3 Vi) years less 135 days jail credit.
Offense: Burglary/Dwell
Date of Offense: June 3, 1992
Subsequently, Petitioner was transferred to Dade County, where he was sentenced on August 9,
1999 for the following:
Case Number: 98-28312
Term: Count 1- Twenty (20) years as a Habitual Felony Offender
pursuant to §775.084(4)(a), Florida Statutes, with a fifteen
(15) year minimum mandatory as a Prison Releasee
Re-offender pursuant to §775.082(8), Florida Statutes, less
341 days jail credit.
Count 2- Ten (10) years as a Habitual Felony Offender
pursuant to §775.084(4)(a), Florida Statutes, with a five
(5) year minimum mandatory as a Prison Releasee
Re-offender pursuant to §775.082(8), Florida Statutes, less
341 days jail credit, concurrent to count 1.
The Court ordered this case consecutive to case 94-16096.
Offense: Count 1- Burglary of a Dwelling
Count 2- Grand Theft
Date of Offense:
Both counts- On or about June 21, 1998
After sentencing in Dade County was complete, Petitioner James was transferred back to Broward
County, where he was sentenced on August 13,1999 for the following:
Case Number: 99-721
Term: Count 1- Thirty (30) years as a Habitual Felony Offender
pursuant to §775.084(4)(a), Florida Statutes, with a fifteen
(15) year minimum mandatory as a Prison Releasee
Re-offender pursuant to §775.082(8), Florida Statutes, less
195 days jail credit.
Count 2- Ten (10) years as a Habitual Felony Offender
pursuant to §775.084(4)(a), Florida Statutes, less 195 days
jail credit, concurrent to count 1.
The Court ordered this case consecutive to any active sentence.
2

Offense: Count 1- Burg Dwelling
Count 2- Grand Theft
Date of Offense:
Both counts- On or about June 13, 1998
After he was sentenced for the second time in Broward County, Petitioner James was
transferred to Palm Beach County, where he was sentenced on October 5,2001 for the following:
Case Number:
99-1368, on October 5,2001
Term: Thirty (30) years as a Habitual Felony Offender pursuant to
§775.084(4)(a), Florida Statutes, less 782 days jail credit.
The Court ordered this case concurrent with any active
sentence.
Offense: Burglary of an Occupied Dwelling
Date of Offense:
On or about May 19,1998
Petitioner James* gain time claim:
Petitioner James claims an entitlement to 20 days of gain time for case number 94-16096.
Under §944.275(4)(a) (1991), Florida Statutes, the Department applied basic gain-time to case
94-16096 at the rate of 10 days per month for each month of the sentence imposed in the amount
of420 days. This action caused the term to reach its end-date prior to Petitioner being received
into Respondent’s custody. Basic gain time was applied to Petitioner’s sentence, (Resp’t Ex. A),
and is capped at 10 days per month, is distinct from incentive gain time which may be awarded
up to 20 days per month. Petitioner James is correct that incentive gain time was not awarded to
case 94-16096, this is because that sentence had expired prior to his placement with the
Department. Placement within the physical custody of the Department of Corrections is a
requirement to earn incentive gain time. See Fla. Admin. Code. R. 33-601.101 (3). Therefore,
Petitioner James has not demonstrated a clear legal right to his requested relief and this claim is
denied.
Additionally, Petitioner James claims that he is not required to serve one third of the
sentence for case number 94-16096. (Pet.; Reply). It is unclear to the Court what authority, if
3

any, Petitioner James intends to use to support this claim. Therefore, Petitioner James has not
demonstrated a clear legal right to his requested relief and this claim is denied.
Petitioner James* sentence restructuring claim:
Petitioner James argues that the Department was without authority to restructure his
sentence and that the new sentence structure violates the sentences imposed by the courts.
The Department must comply with the sentencing court’s orders. In Moore v. Pearson, 789
So.2d 316 (Fla. 2001), the Florida Supreme Court stated that "DOC violates the separation of power
doctrine when it refuses to carry out the sentence imposed by the court. See art. 1 § 18, Fla. Const."
Pearson at 319; See Jones v. State., 570 So.2d 345 (Fla. 5th DCA 1990). An inmate must be given
credit for time spent in jail prior to serving his sentence. See Daniels v. State, 491 So. 2d 543
(Fla. 1986)(pre-sentencing jail credit on concurrent sentences must be reflected in all the
concurrent sentences where an arrest warrant has been executed upon violation of probation).
The Department does not have the authority to rectify any alleged problems relating to court ordered
sentences, including the award ofjail credit. See Id.
The Department does have the authority to correct errors discovered. The courts have
long recognized that errors are made and that correcting these errors does not violate a prisoner’s
rights. See Sullivan v. Jones, 165 So.3d 26 (Fla. 1st DCA 2015) (The Department is duty-bound
to correct inadvertent mistakes in the calculation of gain time and the corresponding release
date.); Vereen v. State, 784 So.2d 1183 (Fla. 5th DCA 2001)(The Department has the authority
to correct record-keeping errors, which thereby increased the appellant’s sentence by 330 days).
Initially, the Department structured the terms imposed in cases 98-28312 (twenty years)
and 99-721 (thirty years) consecutive to case 94-16096 (the three and !4 year term). However,
doing so was a mistake and the sentences in cases 98-28312 (twenty years) and 99-721 (thirty

•4'

years) should have been run consecutive to one another, and to the sentence in 94-16096 (the
three and 'A year term).
Petitioner James’ argument that case number 99-721 should not be structured
consecutively to the earlier imposed sentence in case number 98-28312 because the sentencing
court said “any active sentence currently being served” is unavailing. The Department is correct
in asserting that the sentencing court clearly intended for this sentence to run consecutively.
Petitioner James has, therefore, failed to show that he is entitled to mandamus relief.
ORDERED and ADJUDGED that the petition for writ of mandamus is DENIED.
DONE and OpJEf^RED in Chambers, Tallahassee, Leon County, Florida on

TTTm P/

2019.

RONALD W. FLURY
CIRCUIT JUDGE

Copies provided to:
Derrick James, DC # 536293
Martin Correctional Institution
1150 SW Allapattah Rd.
Indiantown, FL 34956
Beverly Brewster
Assistant General Counsel
Florida Dept, of Corrections
501 S. Calhoun St.
Tallahassee, FL 32399
Beverly.Brewster@fdc.myfIorida.com

S

Additional material
from this filing is
available in the
Clerk's Office.

